           Office of Inspector General




June 17, 2004

PATRICK R. DONAHOE
CHIEF OPERATING OFFICER AND
 EXECUTIVE VICE PRESIDENT

SUBJECT: Fiscal Year 2003 District Consolidations in the Eastern, Northeast, and
         Pacific Areas (Report Number ST-OT-04-001)

This letter presents the results of our review of the fiscal year (FY) 2003 district
consolidations in the Eastern, Northeast, and Pacific Areas that you requested in
November 2003 (Project Number 04BR004OE000). In that request, you asked the
Office of Inspector General to determine what the Postal Service did that worked well
and if improvements could be made in future consolidations.

We concluded that overall the district consolidations process worked well for the Postal
Service. In particular, the Postal Service consolidated administrative functions without
affecting operations or involuntarily separating employees, while still achieving the
district consolidation goals. In addition, no grievances were filed by executive and
administrative schedule (EAS) employees, and only seven Equal Employment
Opportunity (EEO) complaints and two Merit Systems Protection Board complaints
were filed regarding the consolidation. All the EEO complaints and one Merit Systems
Protection Board complaint are pending. The other Merit Systems Protection Board
complaint was settled in favor of the Postal Service.

We conducted over 100 interviews with officials at Postal Service Headquarters in
Washington D.C., area officials in Pittsburgh, Pennsylvania; Windsor, Connecticut;
and San Diego and San Francisco, California; and affected personnel in district offices
including Harrisburg and Philadelphia, Pennsylvania; Springfield, Massachusetts;
Cleveland, Ohio; and Long Beach, Los Angeles, San Jose, and Santa Ana, California.
We interviewed area vice presidents, Postal Service management in each location, and
selected employees affected by the consolidations.

At the conclusion of our visit to each Postal Service area, we summarized the
information we learned about what worked well and what improvements could be
made if future consolidations occur. These detailed summaries are in the attached
appendices:



   1735 N Lynn St.
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
Fiscal Year 2003 District Consolidations in the Eastern,                      ST-OT-04-001
 Northeast, and Pacific Areas


    •   Eastern Area – Appendix A
    •   Northeast Area – Appendix B
    •   Pacific Area – Appendix C

In addition, we provided the Vice President, Employee Resource Management, with an
interim briefing concerning the Eastern Area consolidation, and the Manager, Selection
Evaluation and Recognition, with a final briefing after completing our visits to the
Northeast and Pacific Areas.

Based on our interviews with management and affected employees, we categorized the
results into the following four categories:

    •   Competition
    •   Communication
    •   Planning
    •   Execution

The most important factor in the success of the consolidations was in the area of
competition. Positions vacant prior to the consolidation were held open for affected
employees, which allowed management to achieve its goal of providing a position
for every employee who wanted to continue working. Of the 512 employees affected,
118 received promotions, 221 were moved laterally, 123 accepted demotions,
44 retired, and only 6 individuals voluntarily separated. Overall, the planning,
communication, and execution of the consolidations were successful as well. Our
interviews showed that in the areas of competition, communication, planning, and
execution improvements could be made for future consolidations.

We have summarized what we learned in our interviews and discussions with Postal
Service employees concerning what worked well and what improvements management
could consider if future consolidations occur. In the categories of competition,
communication, planning, and execution, the first bullet summarizes what worked well,
and the second bullet is a summary of improvements.

Competition

    •   By holding job positions open, the Postal Service ensured jobs were available for
        all affected employees. This was a goal of Postal Service management and was
        instrumental in the success of the consolidation. In addition, holding on-site as
        well as phone interviews was more convenient for affected employees. Training
        provided in completing Postal Service (PS) Form 991, Application for Promotion
        or Assignment, helped affected employees in being competitive for open
        positions. Finally, allowing employees demoted to a lower pay grade to retain
        their scheduled merit Increases for the first year was a morale booster for those
        employees.




                                                       2
Fiscal Year 2003 District Consolidations in the Eastern,                        ST-OT-04-001
 Northeast, and Pacific Areas


    o Interviewees stated that more desirable positions became available in
      subsequent rounds of bidding after they had been placed. They believed all
      open job positions should have been available in the first round. This would
      allow employees to be aware of all available positions and apply for those that
      are most desirable. In addition, interviewees suggested that headquarters
      consider matching affected employees with vacancies in the same or similar
      positions and placing employees in those positions.

Communication

    •   Town hall meetings where all affected employees were able to hear the same
        message at the same time were well received. In addition, information binders
        gave all affected employees the same information. Interviewees said that
        websites established to answer questions about the consolidation were valuable.
        In addition, transition managers who assisted in consolidation matters at each
        site, and district level management, provided timely responses to questions from
        employees (usually 48 hours or less).

    o Communication could be improved by better explaining veterans’ preference at
      the announcement of the consolidation. There were veterans who believed they
      would have a preference over other affected employees during the consolidation.
      However, the Postal Service had determined the competitive area no longer
      existed, and therefore, no veterans’ preference existed. In addition, interviewees
      told us that Postal Service management should explain the reason for selecting
      the districts being consolidated. Also, including affected craft employees in initial
      town hall meetings would convey a more consistent message to affected
      employees. We were told the average answer to questions submitted to
      headquarters took approximately two weeks to receive and a more timely
      response was needed.

Planning

    •   Employees had a positive response to the consistent information provided to
        them. The response was positive because headquarters provided information
        packages to the area offices that included newsbreaks announcing the
        consolidation, service talks with talking points for town hall meetings, and
        guidelines on how to conduct the consolidations.

    o Employees said that for future consolidations, a decision on Voluntary Early
      Retirement Authority (VERA) should be made before the consolidation
      announcement. On July 11, 2003, management announced the consolidation,
      and VERA was not available to affected employees until late August 2003.
      Employees considered this to be too late because by the time VERA was
      approved, employees who had accepted positions were no longer eligible for
      VERA. The delayed decision was caused, in part, because the paperwork was



                                                       3
Fiscal Year 2003 District Consolidations in the Eastern,                       ST-OT-04-001
 Northeast, and Pacific Areas


        not submitted to the Office of Personnel Management (OPM) for approval early
        enough in the process, and because OPM took longer than expected to approve
        the VERA. In addition, employees said administrative consolidations should, if
        possible, be planned to avoid the traditional open seasons so that additional work
        is not created during the peak season for administrative functions.

Execution

    •   Management built trust with employees with the use of saved salary. Employees
        who accepted downgrades were guaranteed their salary would remain stable for
        two years. In addition, since employees were applying for multiple positions, it
        was helpful to allow them to rank their preference of positions. This allowed
        management to work with impacted employees to obtain their most desirable
        position. Providing annuity statements to retirement eligible employees was well
        received by those employees.

    o Employees suggested additional time is needed to complete and rank
      applications and interview candidates so that everyone involved in the
      consolidation process can make the best decisions. In the Eastern Area,
      employees told us they were overwhelmed with the increased volume of work
      and it had become hard to manage because there were difficulties in combining
      multiple district personnel systems with an increased volume of work using the
      same staff level.

Overall, the Postal Service’s approach to district consolidations contributed to its
success. As with any process, there are areas that can be improved for any future
consolidations. The attached appendices give detailed explanations of the Postal
Service’s success with the district consolidations and possibilities for more success in
the future.

We appreciate the cooperation and courtesies provided by your staff and the
opportunity to assist you in improving Postal Service operations. Our office would
welcome an opportunity to serve you again as an independent third party reviewer.
If you have any questions or need additional information, please contact
Michael Thompson, Director, Strategy and Performance, at (703) 248-2389 or me
at (703) 248-2300.


/s/ Ronald Merryman

Ronald Merryman
Deputy Assistant Inspector General
 for Technology, Marketing, and Oversight

Attachment




                                                       4
Fiscal Year 2003 District Consolidations in the Eastern,   ST-OT-04-001
 Northeast, and Pacific Areas


cc: Suzanne F. Medvidovich
    Dewitt O. Harris
    Jon M. Steele
    Alexander Lazaroff
    Alfred Iniguez
    Susan M. LaChance
    Joseph K. Moore




                                                       5
Fiscal Year 2003 District Consolidations in the Eastern,                        ST-OT-04-001
 Northeast, and Pacific Areas


                              APPENDIX A. EASTERN AREA

We conducted work at the Eastern Area office in Pittsburgh, Pennsylvania, and district
offices in Harrisburg, Pennsylvania; Philadelphia, Pennsylvania; and Cleveland, Ohio.
We conducted 41 interviews which included the Area Vice President, various managers,
and affected employees. The following is a summary of the information we received in
the Eastern Area.

What Worked Well:

Competition

    •   Positions on Hold
        By holding positions open, the Postal Service ensured that jobs were available
        for all affected employees. This was instrumental in the consolidation’s success.

    •   Competing for Positions With Other Affected Employees
        Only employees affected by the consolidation were able to compete for positions
        during the first round of postings. This limited the competition to affected
        employees and allowed them to be placed in open positions.

    •   On-Site Interviews
        Interviews for vacant positions were conducted at the location of the affected
        employees. This saved the Postal Service time and money and was more
        convenient for employees. On-site interviews also allowed more employees to
        compete for open vacancies.

    •   Training
        Affected employees received training assignments so they could gain experience
        and knowledge in other Postal Service positions. This allowed them to be
        minimally qualified for open positions that they would not have qualified for
        otherwise.

    •   Merit Increases
        Headquarters decided that employees demoted to a lower pay grade would
        receive their annual merit raise at their previous pay grade for the first year.
        Most employees affected held their prior positions for the majority of the year,
        and this was a morale booster for those employees.

Communication

    •   Town Hall Meetings
        Management held town hall meetings to ensure all affected employees heard the
        same message at the same time.




                                                       6
Fiscal Year 2003 District Consolidations in the Eastern,                        ST-OT-04-001
 Northeast, and Pacific Areas



    •   Information Binders for Affected Employees
        All affected employees received information binders with answers to common
        questions about the consolidation, how to secure another position and options for
        separating from the Postal Service. This ensured that employees received the
        same information at the same time.

    •   Transitional Manager
        A transitional manager was identified to serve as a focal point at each site. This
        manager handled employees’ questions and concerns about the consolidations
        and provided consistent information.

    •   Statistics on Positions
        Management quickly provided affected employees the status of promotions,
        demotions, and lateral reassignments. It was helpful for employees to see that
        promotions and lateral assignments took place and not only demotions.

    •   Timely Responses by Transition Manager
        Management and employees agreed that 90 percent or more of all employee
        questions about the consolidation were answered by email within 48 hours of
        submission.

Planning

    •   In interviews, we did not receive any information in this area.

Execution

    •   In interviews, we did not receive any information in this area.

What Needs Improvement:

Competition

    o Positions Not Released During First Round
      We were told in interviews that several management, associate supervisor, or
      higher-level positions were held open but were not available to affected
      employees in the first round of bidding. Management explained that these
      positions were initially held open because there were excess candidates in the
      national supervisory program. However, after a review, management found no
      one from the national program was located in the affected districts, so the
      positions were released for the second round of announcements for affected
      employees. This decision to hold the jobs open during the first round was made
      at headquarters and area levels. Any employee who accepted a job during the




                                                       7
Fiscal Year 2003 District Consolidations in the Eastern,                       ST-OT-04-001
 Northeast, and Pacific Areas


        first round was no longer eligible to apply for new jobs in subsequent rounds,
        although higher-level positions were open.

    o Holding Vacant Positions
      According to employees, several higher-level postmaster jobs in the affected
      areas were filled two weeks before the consolidation was announced. Several
      affected employees stated they would have applied if they had known about the
      pending consolidation. Affected employees could not understand why these jobs
      were not held open, as the others had been.

Communication

    o Timely Answers Needed from Headquarters
      Employees stated that responses took an average of one to two weeks, which
      they felt was too long given the condensed timeframes. This occurred because
      complex questions could not be answered at the area level and were referred to
      headquarters, extending the total response time.

    o Clear Guidance Needed for Veterans
      Veterans believed they would have a preference over other affected employees
      during the consolidation. However, the Postal Service determined the
      competitive area no longer existed and therefore no veteran’s preference existed.
      Communication could be improved by better explaining veteran’s preference at
      the announcement of the consolidation.

    o Craft Employees Not Informed
      The employees we interviewed stated that area management officially notified
      non-bargaining unit (EAS) employees of the consolidation and what it meant.
      Interviewees said it would have been helpful if management had met with
      bargaining unit (craft) employees who worked at the district office to explain the
      impact of the consolidation.

Planning

    o Voluntary Early Retirement Authority (VERA) Decision Needed Earlier
      The announcement to consolidate was made on July 11, 2003, and the affected
      employees indicated they had to determine their career and future immediately .
      However, the VERA was not available to affected employees until late
      August 2003. Employees considered this to be too late in the process. This is
      significant because by the time VERA was approved, employees who had
      accepted positions were no longer eligible for VERA. The delayed decision was
      caused in part because the paperwork was not submitted to the Office of
      Personnel Management (OPM) for approval early enough in the process and
      also because OPM took longer than management expected to approve the
      VERA.




                                                       8
Fiscal Year 2003 District Consolidations in the Eastern,                      ST-OT-04-001
 Northeast, and Pacific Areas



    o Administrative Support Areas Need to be Involved Early
      In interviews, district personnel said administrative personnel need to be included
      in planning to determine issues and needs for future consolidations to help with
      transitioning of administrative functions. The consolidations had an affect on
      which employees would be responsible for administrative functions, including
      finance numbers, local post offices, vehicle maintenance facilities, contracts, and
      personnel actions.

    o Number of Authorized Positions and Location
      Area management stated headquarters gave them only three hours to determine
      the final numbers of authorized personnel for the districts, which included cutting
      several positions at headquarters’ request, and where to employ personnel.
      Area management did not consider this sufficient time to consult the affected
      districts and make the appropriate decisions.

    o Computer and Systems Access
      On the effective date of the consolidation, field employees stated they could not
      access the district’s former computer systems such as Operations and Human
      Resources data. Although employees were reassigned to new districts, neither
      new nor old district personnel could access the computer systems of the former
      district. This occurred because all access ended on the closure date of the old
      district, preventing completion of personnel actions. Interviewees stated that
      better planning of infrastructure issues, including transitioning from old to new
      systems, would be helpful.

    o Moving Contracts
      Employees said there was a delay in moving furniture, fixtures, and computer
      equipment from the former district office to employees’ new locations. They said
      this occurred because the Memphis operation needed four weeks to process the
      contract request and management did not submit the request in advance.
      Moving contracts should be set up at the beginning of the consolidation.

    o Transition Manager’s Responsibilities
      Employees said they were unsure about the Transition Manager’s
      responsibilities, and communicating this manager’s duties to all levels would be
      helpful. This would inform all employees about responsibilities and expectations
      of the newly created position of Transition Manager.

    o Avoiding Traditional Open Seasons
      District personnel suggested future consolidations should be planned to avoid
      traditional open seasons such as the Thrift Savings Plan, Flexible Spending
      Accounts, health care coverage, and retirements that typically take place from
      October through December. This would reduce the workload for Human
      Resources personnel during consolidations.




                                                       9
Fiscal Year 2003 District Consolidations in the Eastern,                      ST-OT-04-001
 Northeast, and Pacific Areas



Execution

    o More Time Needed for Ranking and Interviewing Candidates
      Interviewees stated that additional time is needed to rank the applications and
      interview candidates so that all involved in the consolidation process will have
      sufficient time to make the best decisions.

    o Generic Job Announcements
      According to affected employees, there was significant confusion about job
      announcements for human resource specialist positions. These announcements
      were generic, and the affected employees did not know whether a specific job
      was for the safety division or personnel division. This was significant because
      employees knew there were planned cutbacks in the personnel division and did
      not want to apply for this area. Employees felt specific announcements would
      have prevented this confusion.

    o Interview Questions Should Be Job-Related
      Employees stated that most job interviews consisted of one question, “Tell me
      about yourself.” Affected employees believed that questions should apply to the
      open position and the duties or knowledge, skills, and abilities (KSAs) for the
      position.

    o Combining Two Personnel Systems
      Employees told us they were overwhelmed with the increased volume of work,
      which was hard to manage because they had to combine multiple district
      personnel systems. This created an increased amount of work, although the
      number of staff did not increase.




                                                      10
Fiscal Year 2003 District Consolidations in the Eastern,                       ST-OT-04-001
 Northeast, and Pacific Areas


                                APPENDIX B. NORTHEAST AREA

We conducted work at the Northeast Area office in Windsor, Connecticut, and the
district office in Springfield, Massachusetts. We conducted 39 interviews which
included the Area Vice President, various managers, and affected employees. The
following is a summary of the information we received in the Northeast Area.

What Worked Well:

Competition

    •   Positions on Hold
        By holding positions open, the Postal Service ensured that jobs were available
        for all affected employees. This was considered instrumental to the success of
        the consolidation. There were 94 employees that were affected, and over
        130 jobs were available.

    •   Competing With Other Affected Employees for Positions
        Only employees affected by the consolidation were able to compete for positions
        during the first round of postings. This limited the competition to affected
        employees and allowed them to bid and be selected for open positions.

Communication

    •   Town Hall Meetings
        Management held town hall meetings so all affected employees heard the same
        message at the same time and information was consistent. The Area Vice
        President visited Springfield to announce the consolidation to district employees.

    •   Information Folder for Affected Employees
        To keep affected employees informed, they received folders containing
        information on the timeline for consolidation in the Northeast Area, Springfield
        District; information on the employee website, placement guidelines, Reduction in
        Force guidelines, job postings; and a disk containing PS Form 991.

    •   Website
        Management created a website to keep employees informed of positions that
        were available, awarded, and to provide general information.

    •   Transitional Manager
        A transitional manager served as a focal point at each site. This manager
        handled employees’ questions and concerns about the consolidations, and
        provided consistent information and a uniform message.




                                                      11
Fiscal Year 2003 District Consolidations in the Eastern,                        ST-OT-04-001
 Northeast, and Pacific Areas


    •   Implementation Team
        The implementation team was helpful and available to answer questions and
        reviewed and made suggestions to affected employees about completing
        PS Form 991.

Planning

    •   Voluntary Early Retirement Authority (VERA)
        Management was confident that all employees who wanted jobs would be
        placed; therefore, they did not request VERA. Management told us there were
        more open positions than affected employees; therefore, VERA was not needed.

Execution

    •   Interviews
        To assist employees who were out of the office during the interview period,
        management allowed them to conduct interviews by telephone.

    •   Save Salary
        Interviewees told us that employees who were demoted were able to retain their
        salaries for two years. These employees could also search for higher-level
        positions during this two-year period.

    •   Training
        To help employees become more competitive for open job positions,
        management provided training on how to complete PS Form 991.

    •   Preference List
        Employees applying for multiple positions found it helpful to rank their preference
        of positions. This allowed management to work with affected employees to
        obtain their most desired positions. Employees were also allowed to bid for jobs
        in other districts.

What Needs Improvement:

Competition

    o Limited Competition
      Affected employees stated they should be given the opportunity to obtain
      the best position possible and not be required to take the first job offered.
      Employees who accepted a job during the first round were no longer eligible to
      apply for new jobs in subsequent rounds, although higher-level positions were
      available than the positions they had been awarded.




                                                      12
Fiscal Year 2003 District Consolidations in the Eastern,                       ST-OT-04-001
 Northeast, and Pacific Areas



Communication

    o xxxxxxxxxxxxxxxx a “Heads Up”
      xxxxxxxxxxxxxxxxxxxxxxxx stated that xx deliberately leaked the pending
      consolidation to give xxx people a “heads up,” giving them additional time to
      secure new positions. However, headquarters wanted all employees affected by
      the consolidations to receive a uniform message from management at the same
      time.

    o Media Reported Consolidation
      Postal Service management told us the media reported the consolidation in the
      newspapers before employees were officially informed.

    o Craft Employees Not Informed
      The employees we interviewed stated that area management officially notified
      non-bargaining unit (EAS) employees of the consolidation and what it meant.
      Interviewees said it would have been helpful if management had also met with
      bargaining unit (craft) employees who worked at the district office to explain the
      consolidations.

    o Clearer Guidance Needed
      Veterans believed they would have a preference over other affected employees
      during the consolidation. However, the Postal Service determined the
      competitive area no longer existed, and therefore no veteran’s preference
      existed. Communication could have been improved by better explaining
      veteran’s preference when the consolidation was announced.

    o Selection of Springfield for Consolidation
      Employees stated it was not clear why Springfield was selected for consolidation
      or what was accomplished by the consolidation. According to employees,
      Springfield had a history of being a high-performing district.

    o Merit Pay
      Affected employees stated there was confusion as to how merit pay should be
      calculated and whether it should have been based on the current or previous
      grade level.

    o Website
      According to employees, the website was not regularly updated after most
      affected employees were placed. Employees who were not yet placed felt they
      did not receive current information on the website.




                                                      13
Fiscal Year 2003 District Consolidations in the Eastern,                    ST-OT-04-001
 Northeast, and Pacific Areas


Planning

    o Computer and Systems Access
      On the date of the consolidation, field employees stated they could not access
      the district’s former computer systems such as Operations and Human Resource
      data. Although employees were reassigned to new districts, neither new nor old
      district personnel could access the computer systems of the former district. This
      occurred because all access ended on the closure date of the old district,
      preventing completion of personnel actions. Interviewees stated that better
      planning of issues, including transitioning from old to new systems, would be
      helpful.

    o Employee Assistance Program
      According to employees, the Employee Assistance Program (EAP) should have
      been involved at the local level instead of only at headquarters. The local EAP
      office was closed the day the consolidation was announced, since it was staffed
      by an affected Springfield District employee who was part of a pilot program (a
      joint union and management endeavor). The EAP counselor was not allowed to
      formally close cases because the priority was to complete PS Forms 991 and
      find a new position. In addition, management requested confidential employee
      records and files without employees’ written consent, but the EAP counselor did
      not release the files. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
      xxxxxxxxxx. The counselor informed employees with open cases that the
      Springfield pilot program was ending and they would need to contact a
      representative of the national EAP program if they needed further assistance.

    o Routine Duties
      Employees stated they were told to complete their PS Forms 991 and not do any
      other work. They were also told they would receive help in performing their
      routine duties. However, they received little or no support in performing their
      routine duties. They had to complete PS Form 991 in addition to their routine
      workload.

    o Insufficient Time to Complete PS Form 991
      Impacted employees stated they were encouraged to apply for as many jobs as
      possible and were told the best jobs would be filled in the first round of
      competition. They said two weeks was not sufficient time to complete the
      numerous applications.

    o Electronic PS Form 991
      Interviewees stated the Northeast Area received electronic applications in
      various formats and had difficulty accessing some of them. Affected employees
      received a new PS Form 991 application template, but had difficulty using the
      new version. Therefore, some employees used more familiar templates.




                                                      14
Fiscal Year 2003 District Consolidations in the Eastern,                     ST-OT-04-001
 Northeast, and Pacific Areas


Execution

    o Telephone Interviews
      Some employees stated they did not like having interviews conducted by
      telephone when they were in leave status or away from the office because this
      intruded on their personal time.

    o Indefinite Save Grade
      The Area Vice President stated he would have preferred indefinite save grade as
      used in the 1992 reorganization. He stated that save grade allowed for a much
      easier transition for the employees. Save grade would have increased the
      “high 3” for employees near retirement. Under the current district consolidations,
      employees save their salary for only two years.




                                                      15
Fiscal Year 2003 District Consolidations in the Eastern,                      ST-OT-04-001
 Northeast, and Pacific Areas



                                  APPENDIX C. PACIFIC AREA
We conducted work at the Pacific Area office in San Francisco, California, and district
offices in Oakland, San Jose, Santa Ana, and Los Angeles, California. We conducted
36 interviews which included the Area Vice President, various managers, and affected
employees. The following is a summary of the information we received in the Northeast
Area.

What Worked Well:

Competition

    •   Positions on Hold
        By holding positions open, the Postal Service ensured there were jobs available
        for all affected employees. This was instrumental to the consolidation’s success.

    •   Competing for Positions with Other Affected Employees
        Only employees affected by the consolidation were allowed to compete for
        positions during the first round of postings. This limited the competition to
        affected employees and allowed them to be placed in open positions. Also, after
        the first round of competition, employees were allowed to bid for jobs in other
        districts.

Communication

    •   Town Hall Meetings
        Management held town hall meetings to ensure all affected employees heard the
        same message at the same time and also to provide consistent information. The
        Area Vice President visited both San Jose and Long Beach to inform district
        employees of the consolidation.

    •   Transitional Manager
        A transitional manager served as a focal point at each site. This manager
        answered employees’ questions and concerns about the consolidations and
        provided consistent information. The San Jose employees had high praise for
        their transition coordinator.

Planning

    •   Computer/Systems Access
        Area management stated that on the effective date of the consolidation, field
        employees retained access to the former district computer systems such as
        Operations and Human Resources data. Before the effective date, Pacific Area




                                                      16
Fiscal Year 2003 District Consolidations in the Eastern,                        ST-OT-04-001
 Northeast, and Pacific Areas


        management obtained emergency access to San Jose and Long Beach District
        computer systems.

    •   Consistency
        Area management stated that headquarters and the affected areas were to hold
        daily teleconferences at the beginning of the consolidation process. Regular
        teleconferences were held with consolidation team members and Human
        Resources managers. In addition, area management discussed “what if”
        scenarios and sent standard operation procedures to the field to provide
        consistency.

Execution

    •   Interviews
        Employees told us interviews were conducted at hotels in San Jose for San Jose
        District employees and Los Angeles for Long Beach District employees. If
        employees were out of the office, they could be interviewed by telephone. In
        addition, a representative from each functional area the employee applied for
        was present at the interview to ask specific questions, reducing the number of
        interviews an employee was required to attend.

    •   Completing PS Form 991
        Employees said that applicants for jobs at the same or lower level had to submit
        only pages 1 and 2 of PS Form 991, which saved time. The additional pages
        addressing KSAs were needed only when applying for higher-level jobs.

    •   Saved Salary
        Interviewees told us employees who were demoted were able to retain their
        salary for two years.

    •   Training
        To help employees become more competitive for open positions, training was
        provided on how to complete PS Form 991.

    •   Preference List
        Employees applying for multiple positions found it helpful to rank their preference
        of positions. This allowed management to work with affected employees to
        obtain their most desired positions.

    •   Annuity Calculations
        Eligible employees received annuity calculations to assist them with retirement
        planning.




                                                      17
Fiscal Year 2003 District Consolidations in the Eastern,                         ST-OT-04-001
 Northeast, and Pacific Areas


What Needs Improvement:

Competition

    o Clearer Guidelines Needed
      Employees told us that several management, associate supervisor, or higher-
      level positions were held open, but were not available to affected employees in
      the first round of competition. It was explained that these positions were initially
      held open because there were excess candidates in the national supervisory
      program. The decision to hold the jobs open during the first round of bidding was
      made at the headquarters and area levels. Any employee who accepted a job
      during the first round was no longer eligible to apply for new jobs in subsequent
      rounds, even if higher-level positions were available than the one awarded.

    o Interim Job Postings
      Employees stated that too many jobs were posted between the three rounds of
      competition, instead of posting all openings in the first round. Interviewees
      stated this gave the appearance that upper management was withholding jobs
      from affected employees.

    o Limited Competition Alternatives
      Area management suggested that headquarters study the job posting process in
      a limited competition environment. This could include matching affected
      employees with vacancies in the same or similar positions and placing
      employees in those positions.

Communication

    o Craft Employees Were Not Informed
      Employees stated that area management officially notified non-bargaining unit
      (EAS) employees of the consolidation and what it meant. Interviewees indicated
      that it would have been helpful if management had also met with bargaining unit
      (craft) employees who worked in the district office to explain the impact of the
      consolidation.

    o 50-Mile Radius
      Employees said the headquarters definition of the 50-mile radius rule was
      confusing. Employees who worked for the San Jose District office and were
      domiciled in either Fresno, 2.5 hours away, or Bakersfield, 4 hours away, could
      not apply for job openings at those locations. Employees stated they could apply
      for jobs only within a 50-mile radius of the San Jose District office during the first
      round of job postings.




                                                      18
Fiscal Year 2003 District Consolidations in the Eastern,                     ST-OT-04-001
 Northeast, and Pacific Areas


Planning

    o VERA Decision Needed Earlier
      The consolidation announcement was made on July 11, 2003, and affected
      employees indicated they had to make immediate decisions about their careers
      and futures. However, VERA was not available to affected employees until late
      August 2003. Employees considered this too late in the process. This is
      significant because by the time VERA was approved, employees who had
      accepted positions were no longer eligible for VERA. The decision was delayed
      partly because applications were not submitted to OPM for approval early
      enough in the process, and because OPM took longer than management
      expected to approve the VERA.

    o Abolished Job
      According to interviewees, an affected employee accepted a job in xxxxxx
      xxxxxx, only to have that job abolished one month later. Since the employee had
      accepted the job, xxx was no longer considered affected and could not bid on
      jobs designated for impacted employees.

    o Timing of Consolidation
      Area management suggested timing the consolidation process to coincide with
      January, the month when most employees retire. Interviewees stated that not
      timing the consolidations to coincide with optimal retirement dates for
      government employees poses a tax disadvantage and results in fewer
      employees being willing to retire.

Execution

    o Interviews
      Employees stated they did not like the fact that some interviews were conducted
      by telephone. In addition, some employees stated they had to participate in
      telephone interviews while on leave.

    o Completing PS Forms 991
      According to employees, they were told to complete PS Forms 991 and not do
      any other work. They were also told they would receive help with their workload.
      However, they received little or no support with their regular workload and had to
      complete PS Form 991 within two weeks, which was not sufficient time.




                                                      19
